National Aeronautics and Space Administration
Office of Inspector General
Washington, DC 20546-0001




                                                    July 27, 2009

TO:                 Chief, Safety and Mission Assurance
                    Associate Administrator for Space Operations
                    Director, Johnson Space Center

FROM:               Acting Assistant Inspector General for Auditing

SUBJECT:            Opportunities to Improve the Management of the Space Flight Awareness
                    Honoree Launch Conference Event (Report No. IG-09-017, Assignment
                    No. S-08-008-00)


The Office of Inspector General (OIG) conducted a review of NASA’s Space Flight
Awareness Honoree Launch Conference Event (SFA Conference), which is NASA’s
most prestigious means of recognizing and honoring employees and contractors receiving
awards for their contributions to astronaut safety and mission success. We initiated the
review in December 2007 to assess NASA’s plans to host the awards event for
approximately 300 honorees and their guests. NASA hosted the SFA Conference event
December 3 through December 7, 2007, at the Grand Cypress Resort 1 in Orlando,
Florida. The SFA Conference included lodging at the luxury resort hotel, formal
receptions, and the opportunity to view the launch of the Space Shuttle Atlantis planned
for December 6, all at an expected cost to NASA of between $400,000 and $500,000.
Our objective was to determine whether the December 2007 SFA Conference complied
with Federal regulations and NASA policies and procedures. (See Enclosure 1 for details
on the review’s scope and methodology.)

On October 15, 2008, the President signed the National Aeronautics and Space
Administration Authorization Act of 2008 (H.R. 6063), authorizing appropriations for
NASA programs and projects for fiscal year (FY) 2009 and eliminating funding for the
SFA Conference in FY 2009. Specifically, section 1121, “Limitation on Funding for
Conferences,” states, “No funds authorized under this Act may be used to support a
Space Flight Awareness Launch Honoree Event conference. The total amount of the
funds available under this Act for other Space Flight Awareness Honoree-related




1
    Through an agreement with the Grand Cypress Resort, SFA awardees paid Government per diem rates for
    their accommodations at the resort. The hotel’s Web site identifies the property as a luxury resort
    offering on-site amenities such as multiple golf courses, water sports, tennis and racquetball courts, and
    spa services.
                                                                                                             2



activities 2 in fiscal year 2009 may not exceed 1⁄2 of the total amount of funds from all
sources obligated or expended on such activities in fiscal year 2008.”

Executive Summary
We found that NASA generally followed Federal regulations and Program policies and
procedures for planning and conducting the awards event. Specifically, NASA’s process
for selecting honorees was performed in accordance with policies and criteria provided in
its SFA Policy Document. We also found that NASA’s use of appropriated funds to
award, transport, and provide meals and refreshments to honorees was generally in
accordance with Federal regulations and NASA policies.

Although H.R. 6063 prohibits NASA from funding SFA Conference events during
FY 2009, we found that the Agency could improve the management of these events,
should they be held in future years. Specifically, while the objective of providing awards
to employees and contractors for their contributions to shuttle safety and mission success
is sound in principle, the circumstances of this event bring into question what expense is
reasonably necessary to accomplish that objective. In the case of the December 2007
conference event, 232 honorees received a 7-day, 6-night trip to Orlando in December at
a cost to NASA of $542,307. In addition, 41 Kennedy honorees who participated in the
7-day Orlando event received a separate 3-day, 2-night trip to Johnson Space Center
(Johnson) at a cost of $43,431. However, these amounts do not represent the full cost to
NASA for the event because they do not include labor (salary and benefits) costs 3 for
NASA and contractor employees who participated. We estimate that salaries and
benefits for the honorees represent an additional $424,265, bringing the total cost of the
awards event to $1,010,003.

NASA may have unnecessarily increased the cost of the awards event beyond what was
reasonably necessary in part because program managers added activities and extended the
event, initially planned to be a 4-day, 3-night program, to 7 days and 6 nights.
Specifically, program managers made the following changes to the original agenda:

       •   Extended the event from 4 days and 3 nights to 5 days and 4 nights by adding
           an additional day for a breakfast awards ceremony to recognize 149 of the
           273 honorees. 4 The breakfast awards ceremony increased the conference costs
           by $69,161. Program managers added the breakfast awards ceremony because
           some of the management officials and astronauts presenting awards to the
           149 honorees could not attend the previous evening’s ceremony. No other


2
    Space Flight Awareness activities include motivational visits from astronauts; the development, display,
    and distribution of motivational tools; and ongoing recognition through offering six different SFA awards.
3
    To estimate labor costs, we obtained the average hourly rate for NASA civilian service or Aerospace
    contractor employees (from the U.S. Department of Labor, Bureau of Labor Statistics, Web site) and
    added fringe benefits of 35 percent.
4
    SFA Program officials stated that the other 124 of 273 honorees attended a 1.5 hour briefing that day.
                                                                                               3



       activities were scheduled for the additional day, so the 273 honorees received
       6.5 hours of free time. We estimate that the cost, in salaries and benefits, for this
       free time was $62,807.
   •   Extended the event from a 5-day, 4-night event to a 7-day, 6-night event by
       adding 2 days at a cost of $52,798 because NASA postponed the launch of the
       Space Shuttle Atlantis due to technical issues. However, honorees still were
       unable to view the launch as part of the event because additional delays pushed
       the launch beyond the 2-day extension.

In addition, when the 3-day, 2-night trip to Johnson in January 2008 is included, the total
awards event comprised 10 days and 8 nights. NASA incurred $43,431 in expenses to
provide the 41 Kennedy honorees with the trip to Johnson and an additional estimated
$37,759 in labor costs for those 3 days. The expenses for the Johnson trip may have
unnecessarily increased the cost of the event because NASA had already incurred costs
for the Kennedy honorees who chose to attend the December 2007 ceremonies at the
Orlando resort and Kennedy Space Center.

Although currently prohibited from holding this award event, the Agency should address
the question of what is a reasonably necessary expense before holding any such events in
the future. We recognize that there is a paucity of Federal guidance in the Comptroller
General opinions as to what is reasonably necessary under these circumstances.
However, events such as this one, which ultimately cost NASA more than $1 million, can
appear to be unreasonably costly. Perhaps an awards event the evening before a
scheduled launch, with attendance at the launch as part of the package, is reasonable.
However, beyond that, the Agency can be appropriately criticized for failure to conserve
its appropriated dollars.

In our April 20, 2009, draft of this memorandum, we recommended that prior to
conducting future SFA Conference events, the Associate Administrator for Space
Operations should determine what expenses are reasonably necessary to achieve the
objective of the events and then revise the SFA Policy document to establish criteria for
program managers to use in planning these events. The criteria should address fiscal and
appearance issues and include requirements for selecting locations, establishing agendas,
choosing activities, and documenting that the cost of employee salaries and benefits has
been considered.

In commenting on the draft of this memorandum, the Associate Administrator for Space
Operations concurred with our recommendation to establish criteria for planning future
events. Therefore, we consider the recommendation resolved. The Associate
Administrator also identified several issues in the draft needing clarification. (See
Enclosure 4 for the full text of management’s comments.) We have revised this final
memorandum to address management’s comments and cross-referenced those revisions
in Enclosure 4.
                                                                                             4



Background
Space Flight Awareness Program. The SFA Program is a NASA-managed motivation
program with invited representation from the Office of Space Flight Field Centers, other
NASA Field Centers, and contractors having major responsibilities for the success of
NASA’s human space flight missions. NASA Procedural Requirements (NPR) 8715.3C,
Chapter 1, section 1.11, “Safety Motivation and Awards Program,” requires the Associate
Administrator for Space Operations Mission Directorate to manage a space flight
awareness motivation and recognition program to promote safety, quality, and mission
success within NASA and the supporting NASA contractor/partner workforce.
According to its mission statement, the purpose of the SFA Program is to “ensure that
each and every employee involved in human space flight is aware of the importance of
their role in promoting astronaut safety and mission success in . . . flying humans in the
hostile environment of space . . ..” To achieve that mission, the SFA Program conducts
Awareness, Education Outreach, and Recognition Programs. As part of the Recognition
Program, the SFA holds awards events in conjunction with most Space Shuttle launches.

During these events, NASA presents the “SFA Honoree Award” to approximately
250 NASA civil service and contractor employees. To earn the award, the employee’s
job must be directly or indirectly associated with flight safety or mission success. The
honoree selection criteria notes that honorees must have significantly contributed to the
development and implementation of human space flight programs while ensuring quality
and safety, performed a specific achievement that contributed toward attaining a program
goal, contributed to one or more major cost-saving/cost-avoidance efforts, or been
instrumental in developing improvements that increase reliability, efficiency, or
performance.

In addition to an award certificate and other honoree mementos, honorees receive a trip to
Kennedy Space Center (Kennedy); for those honorees who work at Kennedy, NASA also
awards them a trip to Johnson Space Center (Johnson). At the Kennedy event, honorees
have an opportunity to view a Space Shuttle launch, attend a reception in their honor, and
meet with high-level NASA and industry officials as well as members of the Astronaut
Corps. At the Johnson event, Kennedy honorees have the opportunity to receive a tour of
the Center and meet senior management and members of the Astronaut Corps.

Program Management. The Associate Administrator for Space Operations manages the
SFA Program. In addition, NASA’s Chief, Safety and Mission Assurance and Director,
Johnson Space Center provide leadership and support for the event. The Director of the
Space Operations Mission Directorate’s Mission Support and Communications Office
serves as the SFA Program Manager and is responsible for establishing SFA Program
policy and chairing the SFA National Panel. The SFA National Panel comprises
15 representatives from NASA Centers and major contractors. The SFA Program
Manager and National Panel provide the planning, preparation, coordination, budgeting,
and implementation of SFA Conference events.
                                                                                                             5



Funding. SFA awards events are funded with Space Shuttle Program Mission
Directorate Support funds. Incidental costs NASA incurs for each SFA event, such as
costs for audiovisual services, catering, mementos (such as models of the Space Shuttle,
pins, posters, etc.), per diem, and transportation are funded by NASA: a budget of
$1.63 million was provided in FY 2008 for these costs and costs for SFA activities
associated with its awareness, education outreach, and recognition programs. Initially,
each NASA organization and contractor that nominates an honoree is responsible for
funding the honoree’s expenses for per diem and transportation for the event. For
audiovisual and catering services, hotels allocate and bill the expenses to NASA and the
contractors based on their respective number of honorees. Since NASA encourages
contractor participation in the SFA program, contractors receive reimbursement for these
costs and the costs of transportation and per diem expenses for their honorees as well as
any additional SFA Conference event costs considered allowable under Part 31 of the
Federal Acquisition Regulation.

Awards Program Criteria
Federal Statutes and Regulations. Criteria governing federally funded awards events
are provided in United States Code (USC), the Code of Federal Regulations (C.F.R.)
including Federal Travel Regulation (FTR), and in the Government Accountability
Office’s (GAO) Principles of Federal Appropriations Law, Third Edition, Volume I,
January 2004 (the Red Book).

The Government Employees’ Incentive Awards Act, 5 USC §§ 4501–4506, authorizes
Federal agencies to expend appropriations to provide for awards ceremonies.
Specifically, the Act permits agencies to “incur [the] necessary expense for the honorary
recognition of, an employee” or employees receiving the award. The Act also provides
for the Office of Personnel Management to prescribe regulations and instructions
(in 5 C.F.R Part 451) to guide the planning and conduct of awards programs, but the
current regulations do not set specific limits on costs agencies can incur for awards
ceremonies. The Red Book generally supports agencies use of appropriated funds to
award, transport, and provide meals and refreshments to employees at awards
ceremonies. 5 The Necessary Expense Doctrine, which was developed through GAO
decisions, provides agencies the discretion to determine which expenditures are
reasonably necessary to accomplish the purpose of the events.

The FTR implements statutory requirements and Executive branch policies for travel
by Federal civilian employees and others authorized to travel at Government expense.
Chapter 301, subchapter B, “Allowable Travel Expenses,” provides guidelines for
charging travel expenses, such as transportation, lodging, per diem, and other
miscellaneous expenses.


5
    GAO’s Red Book discusses Federal agencies’ expenditures for non-monetary awards and transportation
    to award ceremonies in chapter 4, section C.8.c, and expenditures for meals and refreshments at awards
    ceremonies in chapter 4, section C.5.b.(3).
                                                                                              6



NASA Policies and Procedures. The Agency has established policies and procedures
governing SFA awards events and requirements in NASA guidance including the
following:

•   “Planning Agency-Sponsored Events,” a memorandum issued by the NASA
    Administrator on November 16, 2005, provides the most recent Agency policy
    statement as well as guidance on accounting for the fiscal, travel, ethical, and
    appearance issues NASA employees should consider when planning NASA-
    sponsored events, including awards ceremonies. The memorandum includes
    requirements for funding events, selecting locations, and providing food,
    refreshments, and entertainment.

•   The SFA Policy Document, November 1, 2001, establishes the roles and
    responsibilities for the SFA Program Manager and National Panel, defines SFA
    Program elements, implementation processes, policy, and requirements and also
    defines the scope, eligibility, nomination, and selection processes for the various SFA
    Program awards and events. Specifically, it contains guidelines that define the SFA
    Honoree Award, the maximum number of participants, employee eligibility for the
    award, the nomination process, selection criteria, and the presentation of awards.

•   NASA Procedural Document (NPD) 1400.1, “Documentation and Promulgation of
    Internal NASA Requirements,” March 3, 2005, contains policies and procedures for
    establishing, documenting, and promulgating NASA internal requirements, such as
    those within the SFA Policy Document noted above. It notes that internal NASA
    requirements documents should be controlled by a documented process that is current
    and includes approvals and requirements that are verifiable.

NASA Generally Followed Awards Event Planning Policies and Procedures
We found that NASA nominated and selected honorees for the December 2007 awards
event in accordance with SFA Policy and criteria. We reviewed 60 of 273 honorees’
nomination forms against criteria in the SFA Policy Document, which requires each
nominated honoree to have satisfied at least one of the following criteria:

    •   Significantly contributed . . . to the development and implementation of human
        space flight programs while ensuring quality and safety.
    •   Accomplished specific achievement(s) that had a significant impact on attaining a
        particular human space flight program goal while ensuring quality and safety.
    •   Contributed to a major cost saving effort or a series of lesser cost saving efforts
        pertaining directly to human space flight programs.
    •   Was instrumental in developing modifications to human space flight mission
        hardware, software, or materials increasing reliability, efficiency, or performance.
    •   Assisted in operational improvements that increase efficiency or performance.
                                                                                          7



   •   Was a key player in developing a beneficial process improvement of significant
       magnitude.

We found that each of the 60 honorees’ nomination forms included information to satisfy
at least one of the above criteria; therefore, the awards were justified in accordance with
the SFA Policy Document.

NASA’s Use of Appropriated Funds Was Generally in Accordance with
 Federal and NASA Policies but Some Expenses Increased the Cost of the
 Event Unnecessarily
We also found that NASA’s use of funds to award, transport, and provide meals and
refreshments to honorees for the awards event was in accordance with Federal statutes
and supported by the Red Book. Specifically, the Government Employees’ Incentive
Awards Act authorized NASA to expend its appropriations for whatever expenses the
Agency determined were necessary to award the honorees. In addition, cases presented
in GAO’s Red Book also generally support NASA’s use of appropriated funds to award,
transport, and provide meals and refreshments to the honorees at the awards events.

Reported Costs Understate Actual Cost
NASA held an SFA Conference event December 3 through December 7, 2007, at the
Hyatt Regency Grand Cypress Resort in Orlando, Florida. NASA planned the event in
conjunction with the launch of Space Shuttle Atlantis, Mission STS-122, scheduled for
Thursday, December 6, 2007. The attendees comprised NASA and contractor employees
and their guests and totaled 626—273 honorees and 353 guests. (See Enclosure 2 for the
December 2007 SFA Conference agenda.) The Hyatt Resort was contracted to provide
rooms, banquet facilities, and catering. Event activities included a reception, a dinner, a
breakfast, a tour of Kennedy, and the planned viewing of the Space Shuttle launch. In
addition, the Program provided a 3-day, 2-night trip to Johnson in January 2008 for 41
Kennedy honorees and their guests. (See Enclosure 3 for the January event’s agenda.)
The total NASA cost reported for the December 2007 event and the January trip was
$585,738. Detailed costs are provided in the table below.
                                                                                        8



                   Detailed Direct Costs Incurred for SFA Conference
       Orlando, Florida, December 2007 – Johnson Space Center, January 2008
                      Activity                         Orlando Event Johnson Event
Honoree Welcome Reception and Recognition Dinner         $ 60,289
Event Brochures                                             6,167
Frames for Honoree Certificates                             2,985
Breakfast Awards Ceremony                                  69,161
Audiovisual Services                                       23,186
Transportation to View the Launch                           3,000
Honoree Shuttle Model Awards                               10,733
Event Extension for Rescheduled Launch (2 days)            52,798
Lunch and Snacks During the Johnson Tour                                   1,600
Transportation for Center Tours                             9,050       $ 1,300
Honoree per Diem                                          167,873        13,625
Honoree Airfare/Transportation                            104,267        24,025
Panel Member per Diem                                      20,985          1,138
Panel Member Airfare/Transportation                        11,813          1,743
  Subtotals                                              $542,307      $ 43,431
      Total for Both Events                                                $585,738

NASA correctly reported $585,738 in expenses directly related to the SFA Conference.
However, we estimate labor (salary and benefits) costs charged to the various NASA
programs of approximately $424,265 for employees’ attendance at the SFA conference
may have unnecessarily increased the actual costs of the SFA Conference beyond what
was reasonably needed to accomplish the objective.

NASA Paid Labor Costs for Honorees’ Free Time
On the second day of the SFA Conference, NASA held a breakfast awards ceremony and
planned no other activities for any of the honorees for the remainder of the day. NASA
officials indicated they scheduled the breakfast ceremony to accommodate the schedules
of invited astronauts and management officials. The breakfast ceremony was only
scheduled for 1.5 hours and the 273 honorees attended either the ceremony or a 1.5-hour
briefing. The honorees had the remaining 6.5 hours of the day as free time. During
interviews we conducted with honorees, they stated that they used the free time to tour,
shop, and use the resort’s amenities. Although NASA did not include labor costs as part
of its $585,738 of reported costs for the SFA Conference, we estimate that various NASA
programs paid an additional $62,807 in labor costs for this free time. Scheduling
conference activities to fully occupy attendee time ensures that conference resources are
used in a productive manner.

Two-Day Event Extension for Shuttle Launch Delay. When the Space Shuttle Atlantis
launch was postponed for 2 days, the Associate Administrator for Space Operations
approved an extension of the Orlando event to provide honorees an additional
opportunity to view the launch. Historically, NASA has postponed 61 percent of Space
Shuttle launches for reasons such as weather or technical difficulties. Of those launches,
                                                                                           9



72 percent encountered delays longer than 2 days. In this instance, additional technical
difficulties forced NASA to reschedule the Atlantis launch for February 2008. Thus,
despite the 2-day extension authorized by NASA, honorees were still unable to view the
launch.

We estimate that NASA incurred $52,798 of additional travel expenses to extend the SFA
Conference event 2 days when the launch of the Space Shuttle Atlantis was postponed.
Our review of honorees’ travel vouchers revealed that 55 percent of honorees stayed at
least a portion of the additional authorized time. The extension resulted in additional
travel costs that unnecessarily increased the cost of the event. We did not estimate
additional costs for honorees’ labor because the extended days comprised the weekend
after the SFA Conference was to have ended; thus, employees should have been on their
own time. In addition, we did not review employee or contractor time reports to
determine whether any time was charged to the various NASA programs for the weekend
extension.

Kennedy Honorees’ Three-Day Trip to Johnson. In addition to the December 2007
SFA ceremonies, Kennedy honorees received a 3-day, 2-night trip to Johnson in January
2008 as part of their SFA recognition. According to the SFA Program Manager, NASA
awards Kennedy honorees with a trip to Johnson because most Kennedy honorees are
familiar with Kennedy facilities and operations, and the trip to tour Johnson furthers the
honorees’ knowledge of the NASA culture. NASA incurred $43,431 in expenses to
provide the Kennedy honorees with the trip to Johnson. Furthermore, we estimate that in
addition to the $43,431 of travel costs for the trip to Johnson, the Agency incurred an
additional $37,759 in labor costs for those 3 days. The expenses for the Johnson trip may
have unnecessarily increased the cost of the event because NASA had already incurred
the costs for the Kennedy honorees that chose to attend all the events at the December
2007 ceremonies at the Orlando resort and Kennedy Space Center. Based on our
interviews, 88 percent of Kennedy honorees attended all of the December 2007 events in
Orlando and at Kennedy, and yet were awarded with the additional trip to Johnson.

Noncompliant Per Diem Reimbursements
We also noted that some of the NASA and contractor SFA honorees did not follow
applicable FTR requirements when preparing their travel vouchers seeking
reimbursement for travel expenses associated with the awards event. Specifically, some
honorees claimed per diem for meals that the Agency provided.

During our review of 60 NASA civil service and contractor honorees’ travel vouchers,
we found that some SFA honorees claimed and were reimbursed for meals that NASA
provided for an estimated total of $2,138 in per diem expenses. We noted 15 of 60 SFA
honorees (25 percent) claimed per diem expenses including dinner and breakfast on the
dates of the awards dinner and breakfast. FTR Part 301-11.18 requires employees to
adjust their per diem to exclude meals provided or paid for by others. Therefore,
honorees who claimed the meals and incidental expenses per diem rate for Orlando
($49 per day, or $36.75 if December 3 was a travel day) should have reduced the per
                                                                                              10



diem claimed by $24 for the meal covered by the awards dinner on December 3.
Additionally, honorees who participated in the awards breakfast on December 4 should
have reduced their per diem claimed by $9. We believe the allowance of the per diem
claims occurred because the honorees, and the approvers of their travel vouchers, were
not aware of the FTR requirement to reduce per diem.

The NASA Shared Services Center processes NASA’s payments, including travel
vouchers, and administers NASA’s collection process for overpayments. The NASA
Shared Services Center policy is to forego collecting overpayments of less than $50
because of the cost associated with the collection process. Since the amount attributable
to individual meals claimed is less than $50 and, therefore, not subject to collection, the
role of the approver is vital to ensuring that travel vouchers are prepared accurately and
travelers are reimbursed at appropriate rates.

We identified a similar finding in our audit report titled, “NASA’s Conference Planning
Process Needs Improvement” (Report No. IG-09-002, October 29, 2008). In that report,
we recommended that the NASA Chief Financial Officer remind travelers, travel voucher
preparers, and approvers of the FTR requirement to reduce the rates when meals are paid
for by the Government or someone else. The NASA Chief Financial Officer agreed to
issue appropriate guidance by December 31, 2008. However, as of April 17, 2009,
no guidance had been issued.

Congress Limits Funding for SFA Conference Events
Subsequent to our review of the December 2007 awards event, the President signed the
National Aeronautics and Space Administration Authorization Act of 2008 (H.R. 6063)
on October 15, 2008, which authorizes the appropriations and programs of NASA for
FY 2009. H.R. 6063 limits total authorized spending on conferences and eliminates
funding for the SFA Conference events. Specifically, H.R. 6063, section 1121,
“Limitation on Funding for Conferences,” states:
       There are authorized to be appropriated not more than $5,000,000 for any expenses
       related to conferences, including conference programs, travel costs, and related
       expenses. No funds authorized under this Act may be used to support a Space Flight
       Awareness Launch Honoree Event conference. The total amount of the funds
       available under this Act for other Space Flight Awareness Honoree-related activities
       in fiscal year 2009 may not exceed 1⁄2 of the total amount of funds from all sources
       obligated or expended on such activities in fiscal year 2008.
                                                                                            11



Management’s Comments on the Findings and Evaluation of Management’s
 Comments
In his response to our April 20, 2009, draft memorandum, the Associate Administrator
for Space Operations identified issues he believed needed clarification.

The Associate Administrator stated that the report’s references to the National
Aeronautics and Space Administration Authorization Act of 2008 were unnecessary
because the statute does not pertain to the December 2007 event, and references to the
Act only serve to distract from the legitimate conclusions of the report. We believe that
reference to the National Aeronautics and Space Administration Authorization Act of
2008 is relevant to the report’s findings because the Act limited the amount of FY 2009
funds NASA could expend on SFA conference events. In doing so, we believe that
referencing the Act informs readers of Congressional interest in the SFA Program and its
current status.

The Associate Administrator also noted that the event only cost NASA more than
$1 million when indirect costs of honorees salaries and benefits were included at our
estimated rates and stated that salaries and benefits are not always included in calculating
total costs. We acknowledge that the event costs exceeded $1 million only with the
inclusion of our estimate of labor rates; however, we believe the report is clear on that
issue and our methodology for estimating is reasonable. Including salaries and benefits
in calculating the total costs is consistent with full costing principles and properly reflects
the value of resources used to achieve the objective of the event.

The Associate Administrator further states that our report assumes that none of the
honorees performed productive NASA work while at the event and that we used notional
labor rates for those employees. As stated above, we believe our methodology and use of
conservative labor rates to develop our labor estimate is reasonable. We did not assess
whether the honorees performed any productive work during the SFA event; however, in
interviews with 60 SFA honorees regarding their activities after the Breakfast Awards
Ceremony, a majority told us they used the 6.5 hours to visit local Orlando attractions,
use resort amenities, shop, or visit friends and family. The same honorees indicated they
performed similar activities during other periods of free time and during the launch
delays at the SFA event.

Recommendation, Management’s Response, and Evaluation of
 Management’s Response
We recommended that prior to conducting any future SFA Conference events, the
Associate Administrator for Space Operations determine what expenses are reasonably
necessary to achieve the objective of the events and revise the SFA Policy document to
establish criteria for program managers to use in planning these events. The criteria
should address fiscal and appearance issues and include requirements for selecting
                                                                                         12



locations, establishing agendas, choosing activities, and documenting that the cost of
employee salaries and benefits has been considered.

   Management’s Response. The Associate Administrator for Space Operations
   concurred, stating that the SFA Policy Document is being revised into a NASA Policy
   Directive that will establish criteria for program managers to use when planning
   future events.

   Evaluation of Management’s Response. Management’s planned action is
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.



We appreciate the courtesies extended during our review. If you have any questions, or
need additional information, please contact Mr. John Apker, Human Capital and
Institutional Management Directorate, at 202-358-2978.


       /signed/
Debra D. Pettitt

4 Enclosures
                              Scope and Methodology
We performed this review from December 2007 through March 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. We performed our review at the Hyatt Regency Grand Cypress
Resort, Orlando, Florida; Johnson Space Center; and NASA Headquarters.

To determine whether NASA had conducted the December 2007 SFA Honoree Event in
accordance with Federal regulations and NASA policies and procedures, we reviewed the
following laws, regulations, policies, and procedures:

   •   Principles of Federal Appropriations Law, Volume 1, Chapter 4, “Availability of
       Appropriations,” January 2004;

   •   The Government Employees’ Incentive Awards Act, 5 U.S.C., Sec. 4501-4506;

   •   Federal Travel Regulation, Chapter 301, “Temporary Duty (TDY) Travel
       Allowances,” January 2004;

   •   NPD 1400.1, “Documentation and Promulgation of Internal NASA
       Requirements,” March 3, 2005;

   •   NASA Procedural Requirement 3451.1, “NASA Awards and Recognition
       Program,” May 7, 1999;

   •   NASA Administrator’s Memorandum, “Planning Agency-Sponsored Events,”
       November 16, 2005; and

   •   “Space Flight Awareness Policy Document,” November 1, 2001.

To obtain an eyewitness account of the facilities, food, and events of the December 2007
SFA Conference, we attended select portions held at the Hyatt Regency Grand Cypress
Resort. Specifically, we attended and observed the welcome reception, recognition
dinner, and awards breakfast.

We met with the SFA Program Manager and SFA Panel members located at Johnson to
obtain an overview of the SFA Program, including its history, process for selecting
honorees, and process for planning SFA honoree events. We also interviewed a
statistical sample of honorees to determine their use of time at the December 2007 event.

We evaluated costs for the December 2007 event and trip to Johnson taking into account
Federal Appropriations Law, Federal Travel Regulations, and NASA policies.



                                                                              Enclosure 1
                                                                              Page 1 of 3
Sampling Methodology. We selected a statistical sample of December 2007 SFA
honorees to review their travel vouchers, nomination forms, and to interview them about
attendance at the award events. To select our sample, we used the attribute estimation
sampling module contained in the Defense Contract Audit Agency sampling software,
“EZ-Quant Statistical Sampling Module.” EZ-Quant produced the sample size of
60 honorees based on our input of a critical error rate of 5 percent, precision goals of
10 percent, and a confidence level of 90 percent. We used EZ-Quant’s Random Number
Generator to select randomly 60 honorees from a spreadsheet listing of 273 employees
NASA gave awards to at the event. Our sample included honorees that were NASA
contractor employees. Therefore, the expense reports reviewed came from NASA and
other sources. Accordingly, since the expense reports reviewed did not all come from the
same source, we did not extrapolate the results of the review to the entire population but
instead provided an estimated outcome.

Computer-Processed Data. We did not perform a detailed assessment of the reliability
of the cost data provided by the SFA Program Manager and contractors for the
December 2007 awards event. To determine the reasonableness of the costs provided by
the SFA Program Manager, we reviewed a portion of honorees’ travel costs, hotel bills,
and contracts. In addition, we compared the costs provided by the SFA Program
Manager to costs that NASA submitted to the U.S. Senate’s Subcommittee on Federal
Financial Management, Government Information, and International Security Committee
on Homeland Security and Government Affairs. Based on those assessments, we
determined that the reliability of the data does not affect our findings.

Review of Internal Controls. We reviewed and evaluated internal controls associated
with nominating and selecting SFA honorees and reimbursing their travel costs. We
identified a weakness in NASA’s reimbursement of travel costs for the SFA Conference
events. A similar finding was identified in our audit report entitled, “NASA’s
Conference Planning Process Needs Improvement” (Report No. IG-09-002, October 29,
2008). The NASA OCFO concurred with the finding and agreed to implement the
related recommendation.

Prior Coverage. During the last 5 years, the NASA OIG issued one report and the
Department of Homeland Security OIG issued one report of particular relevance to the
subject of this memorandum: Unrestricted reports can be accessed over the Internet at
http://www.hq.nasa.gov/office/oig/hq/audits/reports/FY09/index.html and
http://www.dhs.gov/xoig.

NASA OIG

“NASA’s Conference Planning Process Needs Improvement” (Report No. IG-09-002,
October 29, 2008)




                                                                              Enclosure 1
                                                                              Page 2 of 3
Department of Homeland Security OIG

“Assessment of Expenditures Related to the First Annual Transportation Security
Administration Awards Program and Executive Performance Awards” (OIG-04-46,
September 2004)




                                                                         Enclosure 1
                                                                         Page 3 of 3
Agenda for December 2007 SFA Conference Event in Orlando, Florida
           Date and Time                      Event and Activity
                               West Coast Guests / International Guests / SFA
Sunday, December 2, 2007       Panel Members Travel
3:00 - 5:00 pm                 Hotel Check-in

Monday, December 3, 2007       Honoree Travel / Reception / Dinner
3:00 - 5:00 p.m.               Hotel Check-in
5:00 – 6:00 p.m.               Multiple Contractor Awards Ceremonies
7:00 – 7:30 p.m.               Honoree Welcome Reception
7:30 – 9:30 p.m.               NASA Recognition Dinner

Tuesday, December 4, 2007      Awards Ceremonies
                               NASA Centers and Contractor Breakfast Award
8:30 – 10:00 a.m.              Ceremonies

Wednesday, December 5 , 2007   Kennedy Tour
   Group 1
6:45 a.m.                      Load Buses
7:00 a.m.                      Depart Hotel for Kennedy
2:15 p.m.                      Depart Kennedy for Hotel
   Group 2
7:45 a.m.                      Load Buses
8:00 a.m.                      Depart Hotel for Kennedy
3:15 p.m.                      Depart Kennedy for Hotel

Thursday , December 6, 2007    Launch Day
   Non-Kennedy Honorees
12:00 p.m.                     Load Buses
12:15 p.m.                     Buses Depart for launch viewing site
4:31 p.m.                      View Launch of STS 122
4:45 p.m.                      Load Buses
5:00 p.m.                      Buses Depart
  Kennedy Honorees / Guests
2:15 p.m.                      Load Buses
2:30 p.m.                      Buses depart for launch viewing site
4:31 p.m.                      View Launch of STS-122
4:45 p.m.                      Load buses
5:00 p.m.                      Buses Depart

Friday, December 7, 2007       Honorees Travel Home




                                                                       Enclosure 2
                                                                       Page 1 of 1
Agenda for January 2008 SFA Honoree Event at Johnson Space Center
         Date and Time                         Event and Activity
Wednesday, January 23, 2008   Honoree Travel
                              Hotel Check-in

Thursday, January 24, 2008    Honoree Tour / Lunch
7:45 – 8:45 a.m.              Welcome Briefing/ Group Photo
8:50 – 9:10 a.m.              NASA Aircraft Operations
                              International Space Station and Space Shuttle Trainers /
9:15 – 11:30 a.m.             Mission Control Center
11:35 a.m. – 1:30 p.m.        Proceed to Restaurant/ Lunch
                              Neutral Buoyancy Laboratory and Flight Crew
1:45 – 3:45 p.m.              Equipment Facility

Friday, January 25, 2008      Honorees Travel Home




                                                                         Enclosure 3
                                                                         Page 1 of 1
Management’s Comments




                        Enclosure 4
                        Page 1 of 6
              See footnote
              added on
              page 1.



              See
              Management
              Comments,
              page 11.




              Text revised
              on page 2.




Enclosure 4
Page 2 of 6
              See
              Management
              Comments,
              page 11.




              Footnote
              added on page
              2 and text
              revised on
              page 8.



              See
              Management
              Comments,
              page 11.




Enclosure 4
Page 3 of 6
              See
              Management
              Comments,
              page 11.




              Revised
              wording on
              page 3.




              Revised text
              on page 4.




Enclosure 4
Page 4 of 6
              See
              Management
              Comments,
              page 11.




Enclosure 4
Page 5 of 6
Enclosure 4
Page 6 of 6
